CERTIFICATE OF SERVICE
No. 20-891
In the Supreme Court of the United States
AMERICAN AXLE & MANUFACTURING, INC.,
Petitioner,
v.
NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC.,
Respondents.

I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 1st day of March, 2021, I caused an electronic copy of the Brief of Jeremy
C. Doerre as Amicus Curiae in Support of Petitioner to be served by email on the
following counsel for the parties, each of whom has consented to electronic service in
accordance with this Court’s indication in its order of April 15, 2010 that “parties may
be relieved of the obligation to effect service of paper versions of filings upon other
parties if they agree to electronic service” and that “parties are strongly encouraged
to use electronic service if feasible”:
James Richard Nuttall
Counsel of Record
Steptoe & Johnson LLP
227 West Monroe, Suite 4700
Chicago, IL 60606
jnuttall@steptoe.com
Counsel for Petitioner

J. Michael Huget
Counsel of Record
Honigman LLP
315 East Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
mhuget@honigman.com
Counsel for Respondents

I further certify that all parties required to be served have been served.

Certificate of Service, p. 2

Pursuant to the Court’s Order of April 15, 2020 indicating that “with respect
to every document filed in a case prior to a ruling on a petition for a writ of certiorari
or petition for an extraordinary writ, or a decision to set an appeal for argument, a
single paper copy of the document, formatted on 8½ x 11 inch paper, may be filed,”
and that “[t]he document may be formatted under the standards set forth in Rule
33.2, or under the standards set forth in Rule 33.1 but printed on 8½ x 11 inch paper,”
I also certify that on this 1st day of March, 2021, I caused one copy of this brief
formatted under the standards set forth in Rule 33.1 but printed on 8½ x 11 inch
paper to be sent via a third-party commercial carrier (FedEx) for delivery to the Clerk
of this Court within 3 calendar days.
In addition, this brief has been submitted electronically through the Court’s
electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

